                              SOCIAL SECURITY
                                                                           Inspector General

                                     August 22, 2003

The Honorable E. Clay Shaw, Jr.
Chairman, Subcommittee on Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Shaw:

In response to your July 21, 2003 questions related to the July 10th Hearing on Use and
Misuse of Social Security Numbers, I am pleased to provide you with information on
issues related to the Social Security number (SSN).

The enclosed report provides information regarding the following:

•   enumeration;
•   electronic verification of SSNs;
•   enhancement of civil and criminal remedies;
•   provisions for statutory authority to share information with law enforcement partners;
    and
•   funding resources for activities related to combating identity theft or SSN misuse.

If you have any questions or would like to be briefed on this issue, please call me or
have your staff contact H. Douglas Cunningham, Executive Assistant, at (202)
358-6319.

                                                 Sincerely,




                                                 James G. Huse, Jr.

Enclosure

cc:
Jo Anne B. Barnhart




              SOCIAL SECURITY ADMINISTRATION       BALTIMORE MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

       Use and Misuse
    of the Social Security
           Number
         A-03-03-24048




         August 2003
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                      Background
In response to a July 21, 2003 request from the Chairman of the Subcommittee on
Social Security, and following a July 10th Hearing on Use and Misuse of Social Security
Numbers, we are providing the enclosed report which contains information related to:

      •   enumeration,1
      •   electronic verification of Social Security numbers (SSN),
      •   enhancement of civil and criminal remedies,
      •   provisions for statutory authority to share information with law enforcement
          partners, and
      •   funding resources for activities related to combating identity theft or SSN misuse.

TESTIMONY ON USE AND MISUSE OF THE SSN
On July 10, 2003, the Inspector General (IG) of the Social Security Administration (SSA)
testified before the House Ways and Means Committee, Subcommittee on Social
Security. In that testimony, the IG noted that the Nation needs to protect the SSN at
three stages: upon issuance, during the life of the numberholder, and following the
numberholder's death. The IG stated:

•     At Stage One, the Office of the Inspector General (OIG) is working closely with the
      Subcommittee and SSA to strengthen controls over the enumeration process,
      ensure the integrity of identification documents, and make it as difficult as possible to
      fraudulently obtain an SSN from the Government.

•     At Stage Two, where the OIG has focused most of its efforts, the Office has made
      the most progress. In the last several years, we have conducted numerous audits
      and made sweeping recommendations to SSA to improve the SSN misuse problem
      in the earnings reporting process, and most importantly, to improve controls over
      SSN misuse as it pertains specifically to Homeland Security.

•     Stage Three, following the death of the numberholder, is an area in which the OIG is
      working hard to ensure that, through timely reporting, appropriate cross-matching,
      and better controls, the SSNs of deceased individuals are not recycled for
      inappropriate purposes.




1
    Enumeration is the process of assigning and issuing SSNs to individuals.



Use and Misuse of the Social Security Number (A-03-03-24048)                                 1
                                           Results of Review
The Chairman of the Social Security Subcommittee requested we respond to 13
questions. We have provided the responses in the section below.

Question #1: Under current law, the Social Security Administration (SSA) requires
proof of identity, age, and U.S. citizenship or immigration status to obtain a Social
Security number (SSN) or file for benefits. However, SSA does not require photo
identification to obtain an SSN or file for benefits, correct? Would you say this is a
vulnerability in the application process that should be fixed?

Answer to Question #1: You are correct, SSA does not require photo identification to
obtain an SSN or file for benefits. Although we recognize the value of photo
identification, we are unaware of any evidence to support the premise that photo
identification has a higher probative value than other forms of identification. Individuals
who present fraudulent identity documents can easily obtain fraudulent photo
identification documents as well. Absent baseline photo identification with biometric
attributes, it is difficult to ensure photo identification will provide greater assurance that
individuals are who they say they are. In addition, there are segments of the population
who legitimately do not have photo identification. For example, young children and
individuals who do not drive may have no need for photo identification. Also, individuals
who are victims of theft or catastrophic events (for example, fires and floods) may not
have photo identification documents and need their SSN to obtain new ones.

SSA is conducting a pilot study to determine whether the Agency should change the
requirements for identity documentation related to SSN assignment. For example, SSA
will examine the efficacy of requiring two identity documents when an individual does
not have photo identification. Preliminary results indicate that over 70 percent of
applicants present photo identification documents. SSA is also conducting a pilot study
wherein it will request photo identification from individuals filing for Title II and XVI
disability benefits. In addition, SSA will require that individuals allow the Agency to take
their photographs and make these photographs a part of their disability claims folder.
SSA is conducting this pilot to determine whether photo identification will strengthen the
integrity of the disability claims process by helping ensure the individual filing an
application is the same individual examined by the consultative examination physician.
This pilot is scheduled to run through November 2003. SSA will evaluate the results of
the pilot and expand or modify its procedures accordingly.

Question #2: In your testimony, you say that SSA should limit the number of
replacement SSN cards that are issued to an individual. How should replacement cards
be limited in your review?




Use and Misuse of the Social Security Number (A-03-03-24048)                                 2
Answer to Question #2: In our September 2001 report, Replacement Social Security
Number Cards: Opportunities to Reduce the Risk of Improper Attainment and Misuse
(A-08-00-10061), we stated we believed the potential for individuals to improperly obtain
and misuse replacement SSN cards was significant based on our work at SSA field
offices and analysis of national data. Accordingly, we recommended that SSA develop
regulations and incorporate appropriate system controls to limit the number of
replacement SSN cards. To address extraordinary circumstances that warrant
exceptions (for example, the homeless population), we recommended that SSA require
management approval.

SSA has drafted regulations limiting the number of replacement SSN cards issued to
individuals to 2 per year, with a lifetime limit of 10. We support this legislative proposal.

Question #3: In your testimony, you say that SSA should require better cross-
verification of records in the enumeration at birth process. Vulnerabilities in this method
of SSN issuance are particularly important, because over two-thirds of new SSNs are
issued this way. Could you elaborate on the vulnerabilities your office has found with
the enumeration at birth process? What action, if any, has SSA taken to address this
vulnerability? How would you suggest this issue be addressed?

Answer to Question #3: In our September 2001 report, Audit of Enumeration at Birth
Program (A-08-00-10047), we found that birth registration data provided to SSA by the
test hospitals and State Bureaus of Vital Statistics (BVS) were generally accurate and
reliable. However, we identified weaknesses in controls and operations that we
believed SSA needed to address to reduce the enumeration at birth (EAB) program’s
vulnerability to potential error and misuse and to enhance program efficiency.
Accordingly, we recommended that SSA re-invest some of the savings realized by the
EAB program and provide necessary funding, during future contract negotiations, for the
BVSs to perform periodic, independent reconciliations of registered births with statistics
obtained from hospitals’ labor and delivery units and periodically verify the legitimacy of
sample birth records obtained from hospitals. In addition, we recommended that SSA
enhance its duplicate record detection and prior SSN detection routines to provide
greater protection against the assignment of multiple SSNs. We plan to start a follow-
up review of the EAB program in Fiscal Year (FY) 2004 which, once completed, we can
share with you and your staff.

According to SSA’s EAB Project Director, contracts renegotiated in December 2002,
which became effective on January 1, 2003, did not include language that required that
States reconcile registered births with statistics from hospital labor and delivery units.
SSA has had several discussions with the National Association of Public Health
Statistics and Information Systems (NAPHSIS) regarding the most cost-effective
method of reconciling births with statistics from hospitals and verifying the legitimacy of
sample birth records. SSA and NAPHSIS have been unable to agree on a viable
method of addressing this issue, primarily because of financial considerations.
Regarding our recommendation on duplicate record detection, SSA has looked at the
detection routines and practices to determine whether there are feasible software


Use and Misuse of the Social Security Number (A-03-03-24048)                                  3
modifications to the Automated Enumeration Screening Process that would provide
greater protection. However, SSA has made no decisions to implement changes at this
time.

Question #4: Several witnesses testified about use of the SSNs of young children to
commit identity theft. Please provide any statistical information you can obtain
regarding the extent to which this occurs and is prosecuted. Is it usually a family
member who commits identity theft using a child's SSN, or an unrelated person? Would
it be advisable to stop issuing SSNs to children prior to when they start working?

Answer to Question #4: We queried our systems to obtain statistical information
pertaining to the use of children's SSNs, specifically, to determine the extent to which
these SSNs are used in identity thefts and later prosecuted. We also attempted to
determine whether it is usually a family member who commits identity theft using a
child's SSN, or an unrelated person. Unfortunately, the information requested cannot
be retrieved electronically.

Regarding the matter of not issuing an SSN until an individual starts working, it would
be inadvisable, as well as impractical, to cease the practice of issuing SSNs to children
at birth. For example, the Internal Revenue Service (IRS) requires that parents provide
an SSN when claiming children as dependents. Furthermore, children need an SSN to
obtain benefits, such as in cases where a parent dies, and when a child becomes
disabled.

Question #5: The witness for the Identity Theft Resource Center recommended
creation of a Death Master File that contains every death, as well as a file with minors’
names, dates of birth and SSN, to be given to credit agencies to help prevent identity
theft based on those SSNs. He also recommended restricting the publication of SSNs
(including those of deceased individuals) on websites. What are your thoughts on these
issues?

Answer to Question #5: Protection of the integrity of the SSN is one of our most
important missions. As I stated in my testimony before this Subcommittee, “Perhaps
the most important step we can take in preventing SSN misuse is to limit the SSN’s
easy availability.”

In both our audit work and criminal investigations, we have seen the use of a deceased
individual’s SSN for fraudulent purposes. As I also said in my testimony, “…we are
working hard to ensure that, through timely reporting, appropriate cross-matching, and
better controls, the SSNs of deceased individuals are not recycled for inappropriate
purposes.” Therefore, we support any protection of the SSN, including the restriction of
its publication on websites where the general public would have access.

Regarding the proposal for the creation of a Death Master File that would contain every
death, as well as the creation of a file with minors’ names, dates of birth and SSNs, we
are proponents of the ability to cross-verify an individual’s SSN. This is an important



Use and Misuse of the Social Security Number (A-03-03-24048)                                4
tool in the fight against SSN misuse. We have submitted legislative proposals to allow
the OIG to verify SSNs for law enforcement, currently being performed through a
Memorandum of Understanding with SSA, and to provide SSA information to law
enforcement in a life-threatening situation. We do have concerns about the creation of
a file with minors' names, dates of birth and SSNs. The potential misuse of such a
central file without adequate privacy controls could far outweigh its usefulness. Such a
file should be created only with rigid safeguards, with consequences for those who
improperly release or use its information. We urge that the creation of such a file be
done carefully and with due diligence to protecting the rights of the minors.

While providing this information to credit agencies should help prevent identity theft, we
believe law enforcement should also have access to the databases. As I stated above,
cross-verification of an SSN is an important tool in the fight against SSN misuse. These
databases would provide a wealth of vital information to law enforcement in their daily
fight against crime.

Question #6: Knowing that we cannot eliminate the use of the SSN, your staff has
worked tirelessly to protect SSNs upon issuance, during the life of the numberholder,
and even after the numberholder’s death. Central to that process, you emphasized in
your testimony that Congress should consider requiring cross-verification of SSNs
throughout both governmental databases (including the SSA’s) and the financial sector.
Are you talking about a new database, or are you suggesting that existing verification
processes be used to better advantage? How would this limit the spread of false
identification and SSN misuse?

Answer to Question #6: We are not suggesting a new database of SSNs, but rather
better use of existing verification processes. We believe matching the names and SSNs
in SSA’s records to those of Federal and State agencies, employers, and legitimate
private sector entities is one way to ensure the integrity of the SSN as well as the
reliability of information in all databases. SSA’s verification programs, such as the
Employee Verification Service (EVS) for employers, are a key part of this process. In
fact, SSA plans to place its employer verification system on-line to increase employer
participation. This program, called the Social Security Number Verification Service
(SSNVS), is being piloted. SSA is also piloting an SSN verification program for private
companies since, as we noted in our testimony, the Patriot Act requires that the
Department of the Treasury develop a system for domestic financial institutions to verify
the identities of foreign nationals seeking to open accounts with information held by
Federal agencies.

SSA has other completed and ongoing pilots that offer examples of better data sharing
between the Agency and private sector. For example, we recently reported on the SSN
Feedback Pilot, an experiment between SSA and the Office of Child Support
Enforcement to verify employee data through the W-4 reporting process. In an April
2003 Congressional Response Report: Review of the Social Security Number Feedback
Pilot Project (A-03-03-13017), we noted that the final evaluation of the pilot stated that
the SSN Pilot feedback to employers improved the timeliness of employer corrections



Use and Misuse of the Social Security Number (A-03-03-24048)                               5
as well as the accuracy of information used by both the Government and private sector.
The report estimates employers were notified of name and SSN mismatches 12 to
18 months earlier than under the regular wage reporting process at SSA. In addition,
the report noted that the SSN Pilot increased the annual wage reporting accuracy of the
SSN Pilot employers by approximately 10 percent. SSA also has an ongoing pilot with
the Bureau of Citizenship and Immigration Services assisting employers with both SSN
verification and immigration status.

SSA also allows other Federal and State entities, such as State motor vehicle agencies,
the Department of Education, State Temporary Assistance for Needy Families
agencies, the Department of Veterans Affairs, prisons, and State unemployment
agencies to match their data against SSA’s SSN information. It is the responsibility of
these non-SSA parties to make the necessary corrections to their own records to
ensure the integrity of their data.

Even with these projects underway, more can be done. Our September 2002 report on
EVS for registered users, The Social Security Administration’s Employee Verification
Service for Registered Employers (A-03-02-22008), noted that only 392 of
approximately 6.5 million employers in the United States used SSA’s EVS in the last 3
years. We also noted that SSA did not disclose pertinent information that could have
assisted users. Specifically, SSA did not inform employers when a submitted SSN
belonged to a deceased individual or when the SSN was issued to the individual for
nonwork purposes. SSA has stated it intends to modify both EVS and SSNVS to
disclose the pertinent information to employers.

We believe this cross-verification improves the integrity of SSN data, reduces improper
payments, and detects and deters SSN misuse before it can become more widespread.
Greater reliance on data matching should also lead to fewer opportunities for identity
theft.

Question #7: How is SSA doing in ensuring the accuracy of its databases? Are they
making this a system priority? Have they incorporated information from the Death
Master File into all SSN verification processes? If not, when will this be done?

Answer to Question #7: We have previously issued several audit reports related to
the accuracy of the Death Master File (DMF)—which contains approximately 69 million
records—and noted it relies on two types of recordkeeping. First, the DMF does not
contain every deceased SSN holder and therefore the absence of a particular person in
the DMF is not necessarily proof the person is alive, as we discussed in our July 2000
audit report, Improving the Usefulness of Social Security Administration’s Death Master
File (A-09-98-61011). Second, the DMF contains the SSNs of individuals who are not
actually deceased, as we discussed in our June 2001 audit report, Old-Age, Survivors
and Disability Insurance Benefits Paid to Deceased Auxiliary Beneficiaries
(A-01-00-20043). Furthermore, an academic research study, Social Security Bulletin,
The Social Security Administration's Death Master File: The Completeness of Death
Reporting at Older Ages, Vol. 64, No. 1, 2001/2002, concluded that the File's



Use and Misuse of the Social Security Number (A-03-03-24048)                            6
completeness varies significantly based on the age of the decedents. The results were
that death reporting for individuals age 65 or older was over 95 percent complete.
However, the DMF contained only 42 percent of deaths for deceased individuals under
age 25 and 74 percent for those ages 25 to 54.

In September 1999, SSA contracted with NAPHSIS to develop standards and
guidelines for a Nation-wide Electronic Death Registration (EDR) system, including the
on-line verification of SSNs. This system would enable SSA to receive death reports
within 5 days of death and 24 hours of receipt in the State BVSs. This system would
automate the death registration process and enable SSA to receive more timely and
accurate death reports, resulting in significant program and workyear savings. In
addition, EDR provides the infrastructure for other Federal and State agencies that rely
on such information to detect and prevent erroneous payments to deceased individuals.

However, SSA needs to implement a number of systems modifications to realize the
benefits of EDR. Furthermore, SSA needs to encourage State BVS agencies to
establish EDR systems. SSA agreed to obtain systems support for EDR and stated that
implementation is scheduled for September 2003. At that time, SSA expects to be able
to process records from State BVS agencies that implement EDR systems. However,
full implementation with 90 percent of the States participating will not occur until 2005 or
later. Consequently, SSA also agreed to continue to work with NAPHSIS to develop
and implement EDR and stated it had awarded contracts in September 2002 to New
York City, South Dakota, Montana, and Minnesota.

Finally, a review of SSN verification programs indicates that not all of these programs
have been updated to include information from the DMF. As noted in our response to
Question #6 above, SSA had not incorporated the DMF into EVS for registered
employers, though the Agency has plans to do so. Furthermore, not all of the State
motor vehicle agencies that verify their data against SSA are receiving information on
SSNs that belong to deceased individuals. We believe that providing entities with this
information during the verification process assists both SSA and the verifying entity with
data integrity. If the individual being verified is deceased, a new document will not be
issued under that SSN. However, if the individual being verified is incorrectly shown as
deceased on Agency records, the alert to the verifying entity should cause the individual
to contact SSA so the information can be corrected.

Question #8, Part I: You mentioned in your testimony that we need enhanced penalties
for SSA employees who assist criminals in obtaining SSNs. Could you describe cases
you have worked on?

Answer to Question #8, Part I: Typically, SSA employees who assist individuals in
illegally obtaining SSNs will enter into the SSA system to issue an SSN that has not
been previously assigned to an individual. For a fee, the SSA employee provides the
SSN to a third party (or middleman) who then resells the SSN. This provides the
ultimate recipient of the SSN with a unique SSN not associated with another person or
the recipient.



Use and Misuse of the Social Security Number (A-03-03-24048)                               7
Question #8, Part II: What penalties applied under current law?

Answer to Question #8, Part II: Depending on the individual facts as well as the
decision of the prosecuting Assistant United States Attorney (AUSA), examples of
potential penalties include, but are not limited to, a violation of

   1. section 208 of the Social Security Act, 42 U.S.C. § 408, which carries a penalty
      of up to 5 years in prison and/or a fine under title 18 of the United States Code;

   2. 18 U.S.C. § 371, which carries a penalty of up to 5 years in prison and/or a fine
      under title 18 of the United States Code; or

   3. 18 U.S.C. § 201, which carries a penalty of up to 15 years and/or a fine under
      title 18 of the United States Code or not more than three times the monetary
      equivalent of the thing of value.

Question #8, Part III: What additional penalties are needed?

Answer to Question #8, Part III: Under the current statutes cited above, there is no
minimum sentence. As a result, under the current sentencing guidelines, SSA
employees convicted of selling hundreds of SSNs are receiving only months in jail or no
jail time at all, only probation. Three examples include the following.

   1. A former Service Representative sentenced to 3 years’ probation and community
      service after pleading guilty to a bribery charge in connection with issuing 100 to
      200 Social Security cards to illegal aliens. The Service Representative received
      between $50 and $150 for each card.

   2. A former Service Representative was convicted of selling approximately
      300 SSNs to illegal aliens over a 4-year period, receiving $400 for each
      number/card. The Service Representative received 3 years’ probation and was
      fined $2,000.

   3. A former Service Representative admitted to processing “hundreds” of fraudulent
      SSN cards, receiving $100 to $200 for each card. The Service Representative
      was sentenced to 4 months in jail and 3 years’ probation.

The additional penalties we seek will structure the penalties based on the severity of the
SSA employee’s actions, providing for a minimum sentence. SSA employees issuing
SSNs are in a position of trust. When this trust is violated, the effect on SSA’s
programs and operations and on the public in general can be devastating. Fortunately,
the number of SSA employees taking part in these crimes is small. However, these
crimes strike at SSA’s core mission. Participation in such crimes cannot be tolerated.




Use and Misuse of the Social Security Number (A-03-03-24048)                               8
The proposed penalty structure is as follows:

   1. imprisonment not less than 1 year and up to 5 years and a fine under title 18 of
      the United State Code for the fraudulent sale or transfer of not more than
      50 Social Security account numbers and/or Social Security account number
      cards;

   2. imprisonment not less than 5 years and up to 10 years and a fine under title 18 of
      the United State Code for the sale or transfer of more than 50, but not more than
      100 Social Security account numbers and/or Social Security account number
      cards; or

   3. imprisonment not less than 10 years and up to 20 years and a fine under title 18
      of the United State Code for the sale or transfer of more than 100 Social Security
      account numbers and/or Social Security account number cards.

Question #9, Part I: You mentioned in your testimony that we need civil monetary
penalties for SSN misuse, since criminal prosecution is not always available for SSN
misuse and other Social Security-related crimes. In what cases is criminal prosecution
not pursued?

Answer to Question #9, Part I: Because of the volume of cases in some Districts, the
U.S. Attorney’s office has instituted a minimum loss requirement to pursue a case either
criminally or civilly. Depending on the office, this requirement could be from $10,000 to
$100,000 or higher for fraud cases. Under section 1129 of the Social Security Act, 42
U.S.C. § 1320a-8, the U.S. Attorney must prosecute or decline the case criminally and
decline the case civilly before we may proceed.

As an example, if the minimum loss requirement is $50,000 in the U.S. Attorney’s office
and the Social Security-related loss is $30,000, without some other compelling reason
to prosecute the case, for example the accused is a public official, the U.S. Attorney’s
office will usually decline to prosecute the case criminally and civilly. In addition, if the
potential defendant is sympathetic in some regard, an AUSA may decline to prosecute
them criminally.

In addition, the civil monetary penalties we are seeking would expand the scope of
section 1129. Currently, the section applies only to false statements or
misrepresentations of a material fact in relation to an individual’s right to receive
benefits or the amount of benefits under the Social Security Act. Our legislative
proposals would provide us with the tools to pursue civil monetary penalties for the
misuse of the SSN in cases where Social Security benefits were not involved, thus
providing more support for U.S. Attorneys. This is an important step if we are serious
about protecting the integrity of the SSN.

Question #9, Part II: Why is it sometimes a better course of action to obtain
punishment through civil monetary penalties?



Use and Misuse of the Social Security Number (A-03-03-24048)                                9
Answer to Question #9, Part II: Civil monetary penalties may be imposed against an
individual who improperly receives Social Security benefits without subjecting the
individual to potential prison time for a criminal conviction or the stigma of a criminal
conviction. Particularly if the individual does not have a criminal record, this can be a
viable alternative to a criminal prosecution. This resolution will reverberate throughout
the community and could make someone who was contemplating doing the same thing
think twice. Ability to impose a civil monetary penalty shows that, while the individual
may not be criminally prosecuted, they will be responsible for their fraudulent actions.

Question #10, Part I: You mentioned in your testimony that current law providing
criminal penalties designed for crimes involving SSNs or SSN cards is not enough,
because it does not provide for punishment for SSN misuse itself. During the General
Accounting Office’s testimony, they showed us examples of how agents used fraudulent
documents to obtain SSNs and how they used fraudulent SSN cards and other
documents to obtain driver’s licenses. How would these crimes be punishable under
current law?

Answer to Question #10, Part I: The ultimate decision on which statute to proceed
under rests with the applicable U.S. Attorney. Under the factual situation as you have
described, the perpetrator of the fraud could potentially be prosecuted under sections
208(a)(6) and (a)(7)(A) of the Social Security Act, 42 U.S.C. § 408(a)(6) and (a)(7)(A).
It is a violation of section 208(a)(6) of the Social Security Act, 42 U.S.C. § 408(a)(6), for
an individual to furnish false information to set up their account with SSA, including
receipt of an SSN.

It is a violation of section 208(a)(7)(A) of the Social Security Act, 42 U.S.C. §
408(a)(7)(A) to “willfully, knowingly, and with intent to deceive,” use an SSN acquired by
providing false information to SSA.

Violators of either section may be fined under title 18, U.S.C., and/or imprisoned for not
more than 5 years.

In addition, if an SSA employee takes part in the crime, by fraudulently providing an
SSN to the individual, knowing the information was false, the SSA employee may be
guilty of aiding and abetting, punishable as if a principal. The SSA employee may also
potentially be charged under 18 U.S.C. § 371, the Conspiracy to Commit Offense or to
Defraud United States. Finally, if money or something of value changed hands, both
the SSA employee providing the SSN and the individual receiving the SSN may be
guilty of violating 18 U.S.C. § 201, Bribery of Public Officials and Witnesses.

Question #10, Part II: How would the changes you propose make it possible, or at
least easier, to punish these crimes?

Answer to Question #10, Part II: As stated in my testimony, the changes “must
provide meaningful criminal penalties in the Social Security Act, must provide enhanced
penalties for those few SSA employees who betray the public trust and assist criminals



Use and Misuse of the Social Security Number (A-03-03-24048)                               10
in obtaining SSNs, and must provide an administrative safety net in the form of Civil
Monetary Penalties to allow some form of relief when criminal prosecution is not
available for SSN misuse and other Social Security-related crimes.”

As discussed in more detail in Questions 8, 9 and 12, we have submitted several
proposals in this area. One proposal would enhance criminal penalties for SSA
employees who assist criminals in obtaining SSNs. This proposal is designed to
provide mandatory minimum sentences for SSA employees based on the number of
SSNs and/or Social Security cards they have provided to criminals.

In addition, we have submitted a proposal to enhance the penalties for violations of
section 208 of the Social Security Act, 42 U.S.C. § 408 involving an SSN and/or Social
Security card for repeat offenders and those who used the SSN and/or Social Security
card for terrorism, a crime of violence, or trafficking in drugs.

The third proposal would expand the current authority under section 1129 of the Social
Security Act, 42 U.S.C. § 1320a-8 to include the criminal provisions of section 208 of
the Social Security Act, 42 U.S.C. § 408, as well as the legislative proposals regarding
SSA employees, an individual selling their own SSN for fraudulent purposes, and
assisting another person to improperly obtain a second SSN or a number that purports
to be an SSN. This proposal provides an administrative safety net, allowing us to
pursue the violators administratively when criminal and civil prosecution may not be
available through a U.S. Attorney’s office.

Question #10, Part III: Could you give examples of cases to clarify how current law
fails to adequately punish SSN misuse?

Answer to Question #10, Part III: One area is where an individual sells his or her own
SSN for fraudulent purposes. We believe the individual could potentially be prosecuted
for aiding and abetting a crime or under 18 U.S.C. § 371, Conspiracy to Commit
Offense or to Defraud United States. However, there have been several cases where
the U.S. Attorney was reluctant to pursue the criminal prosecution of an individual for
selling his or her own SSN.

Question #11, Part I: Witnesses at the hearing testified about how identity thieves may
repeatedly use a victim’s information to open bank accounts, get credit, or commit
crimes. Current law does not provide for more severe penalties for repeat SSN misuse
offenders, correct?

Answer to Question #11, Part I: Section 208 of the Social Security Act, 42 U.S.C. §
408 provides for a penalty of up to 5 years for a violation of the section. It does not
provide enhanced penalties for repeat offenders or those who use SSNs in connection
with drug trafficking, a crime of violence, or terrorism.
18 U.S.C. § 1028(a)(7) provides for a penalty for knowingly transferring or using, without
lawful authority, the means of identification of another person. The penalty for violating
this statute is not more than 15 years’ imprisonment and/or a fine if the means of



Use and Misuse of the Social Security Number (A-03-03-24048)                            11
identification was used to obtain item(s) of value totaling over $1,000 during any 1-year
period. If the offense is committed after a prior conviction under this statute has
become final, the penalty is up to 20 years’ imprisonment and/or a fine.

Question #11, Part II: What enhanced penalty structure would you suggest for repeat
offenders, or for those who use SSNs in connection with drug trafficking, a crime of
violence, or terrorism?

Answer to Question #11, Part II: We would suggest the following enhanced penalty
structure for violations of section 208 of the Social Security Act, 42 U.S.C. § 408.

   1. If the SSN is used to facilitate an act of international and/or domestic terrorism,
      up to 25 years.

   2. If the SSN is used to facilitate drug trafficking or in connection with a violent
      crime, up to 20 years.

   3. After a prior offense under this section, up to 10 years.

   4. Leave the rest of the violations at the current punishment, up to 5 years.

Question #11, Part III: Is there precedent in current law for such enhanced penalties?

Answer to Question #11, Part III: Yes. 18 U.S.C. § 1028, Fraud and Related Activity
in Connection With Identification Documents and Information, provides for enhanced
penalties for a conviction involving a prior offense, terrorism, a crime of violence or to
facilitate drug trafficking. The initial punishment for a violation under § 1028 is a fine
under this title and either imprisonment for not more than either 3 years or 15 years,
depending upon the facts. Under 18 U.S.C. § 1028(b)(3) and (4) state:

   (3) a fine under this title or imprisonment for not more than 20 years, or both, if the
       offense is committed—
          (A) to facilitate a drug trafficking crime (as defined in section 929(a)(2));
          (B) in connection with a crime of violence (as defined in section 924(c)(3)); or
          (C) after a prior conviction under this section becomes final.
   (4) a fine under this title or imprisonment for not more than 25 years, or both, if the
       offense is committed to facilitate an act of international terrorism (as defined in
       section 2331(1) of this title);

18 U.S.C. § 1030, Fraud and Related Activity in Connection With Computers, provides
enhanced penalties for a subsequent conviction. Specifically, 18 U.S.C. § 1030(3)(A)
and (B) state:

          (c) The punishment for an offense under subsection (a) or (b) of this section
          is—



Use and Misuse of the Social Security Number (A-03-03-24048)                                 12
              (3) (A) a fine under this title or imprisonment for not more than five years,
                      or both, in the case of an offense under subsection (a)(4) or (a)(7)
                      of this section which does not occur after a conviction for another
                      offense under this section, or an attempt to commit an offense
                      punishable under this subparagraph; and
                 (B) a fine under this title or imprisonment for not more than ten years,
                     or both, in the case of an offense under subsection (a)(4),
                     (a)(5)(A)(iii), or (a)(7) of this section which occurs after a
                     conviction for another offense under this section, or an attempt to
                     commit an offense punishable under this section;

Question #11, Part IV: What do you think of the Identity Theft Resource Center’s
suggestion to provide enhanced penalties for stealing a child’s identity?

Answer to Question #11, Part IV: We support enhanced penalties for those who
perpetrate identity theft. We have submitted a legislative proposal to enhance penalties
for SSA employees who assist criminals in obtaining SSNs (see Question #8 above) as
well as a legislative proposal to enhance the penalty structure for violations under
section 208 of the Social Security Act, 42 U.S.C. § 408. (See Question #10 above.)

We agree those less able to protect themselves should be provided additional
protections. The proposal by the Identity Theft Resource Center for an enhanced
penalty for anyone who commits child identity theft has merit. We would offer to work
with the Subcommittee as to what the enhanced penalty should be.

Question #12, part I: In your testimony you mentioned that the Commissioner has ad
hoc authority to permit sharing of SSA information with law enforcement and requested
that the SSA IG be given statutory authority to share SSA information with law
enforcement partners when disclosure is necessary to protect lives, without prior
authorization from the Commissioner. Please elaborate on the circumstances under
which the SSA IG would release information according to this proposal?

Answer to Question #12, part I: 20 C.F.R. § 401.195 provides that the Commissioner
of SSA, or his or her designee, may disclose information if not prohibited by Federal
law. The example provided in the regulation is the disclosure of information necessary
to respond in a life-threatening situation. This designation is on an ad hoc basis.

Shortly after September 11, 2001, the then acting Commissioner of Social Security,
pursuant to this regulation, designated me to provide such information to law
enforcement in terrorist investigations. In addition, during the Washington area sniper
investigation, when law enforcement officers requested help from our Special Agents,
this regulation provided us with the authority to respond.

Our legislative proposal codifies this authority in the OIG within a limited scope. It would
apply only to the disclosure of SSA information to respond to a life-threatening situation.
As with the current designation, the ultimate responsibility as to when to disclose rests
with the IG.


Use and Misuse of the Social Security Number (A-03-03-24048)                                  13
The proposal also requires that the IG advise, within a reasonable time, the
Commissioner of SSA or his or her designee each time disclosure is made pursuant to
this legislation. In addition, an annual report must be filed with the Committee on Ways
and Means of the House of Representatives and the Senate Finance Committee setting
forth each disclosure made during the previous FY.

During an investigation involving a life-threatening situation, time is of the essence. The
time lost securing the needed authorization can mean the difference between success
or failure in locating the subject and/or victim. This delay can be lengthened if the
information is needed after hours or during a weekend.

This legislative proposal will save precious time when a life can be in the balance. Our
proposal will allow us to assist Federal, State and local law enforcement officers in a
timelier manner. We believe we have shown we are responsible in our disclosure policy
and would not abuse this authority.

Question #12, Part II: Do other Inspectors General have authority similar to what you
are requesting?

Answer to Question #12, Part II: We are not aware of any other IG with similar
authority. We would point out that we are aware of no other IG with access to
databases with as much information as the SSA databases, except for perhaps
databases at the IRS.

Question #12, Part III: Please cite examples of how having this authority would have
helped.

Answer to Question #12, Part III: There have been two instances of missing children
in which the OIG was contacted by law enforcement to provide information. In the first
instance, a local police department advised OIG of the murder of a child for the
insurance benefits. The police department went on to advise that the suspect had taken
out an insurance policy on another child and expressed its concern that the suspect,
whose whereabouts were unknown, intended to murder the second child. The police
department requested the SSN for the child to contact the National Insurance Bureau
and locate the suspect via the address on the policy.

In the second instance, a child was reported missing in an area near a Social Security
office. Law enforcement officers requested assistance in identifying individuals who
may have been at the Social Security office.

Question #13: What level of administrative funding does the SSA Inspector General
receive for activities related to combating identity theft or SSN misuse? What types of
activities are supported by this funding? Is this level of funding sufficient?




Use and Misuse of the Social Security Number (A-03-03-24048)                              14
Answer to Question #13: The OIG does not receive funding designated to be
expended for specific initiatives. However, we can estimate the level of expenditures
incurred by initiative. During FY 2002, approximately $10 million or 13 percent of our
appropriation was dedicated to combating SSN misuse. For FY 2003, we expect to
expend the same percentage of our appropriation in this effort.

The OIG conducts a number of activities related to combating identity theft and/or SSN
misuse, including examining in detail the operations of SSA’s enumeration business
process, and applies the lessons learned from investigative casework in analyzing
threats and vulnerabilities. These audit reports address various issues, including how
SSA manages the enumeration business process and ensures SSA takes appropriate
steps to address vulnerabilities. The OIG also produces reports from its analysis of the
Annual Wage Reporting business process. Since the SSN is used as the identifier in
this process, and millions in incoming wages cannot be matched to the name and/or
SSN on SSA’s records, key Homeland Security issues are brought forth by this process.

The OIG’s investigative efforts related to SSN misuse focuses primarily on identifying
those who attempt to obtain or use false or fraudulent SSNs. Determining the intent for
which the number is sought is the predominant factor as to whether the investigation is
considered part of our Homeland Security program. Investigations generally falling into
this category include operations worked in conjunction with, or under the direction of,
Offices of the United States Attorney’s Joint Terrorism Task Forces at airports, power
plants, and other critical infrastructures as well as activities with Foreign Terrorist
Tracking Task Forces. It also includes cases involving the misuse of SSNs by (1) legal
or illegal aliens whose motives for being in the United States are suspect; (2) extremist
groups in this country who are intent on disrupting Federal activities; or (3) U.S. citizens
who are sympathetic to foreign causes and attempt to gain or produce identity
documents bearing SSNs to conceal the true identity of others.

The OIG also performs legal and legislative work to use and strengthen the legal tools
available for defense of the SSN. This will continue to include a proactive role in
advocating measures to enhance SSN integrity.

We also perform outreach work to support our advocacy to increase public awareness
of the broad issues surrounding SSN integrity.

To augment our efforts at combating SSN misuse and identity theft, in our FY 2002
budget request, we introduced the concept of the OIG Social Security Number Integrity
Protection Team. This integrated model combines the talents of auditors, criminal
investigators and attorneys in a comprehensive approach allowing SSA and the OIG to
effectively address this ever-increasing problem and provide assistance to SSA,
Congress, the public, and other law enforcement agencies. Although funds were not
appropriated to support this concept for FYs 2002 and 2003, the FY 2004 budget
includes $2.2 million to fund the hiring of additional staff and support costs for the first
year of a 5-year implementation period.




Use and Misuse of the Social Security Number (A-03-03-24048)                               15
                                      Appendices
  Appendix A – Acronyms
  Appendix B – Scope and Methodology
  Appendix C – Prior Office of the Inspector General Reports




Use and Misuse of the Social Security Number (A-03-03-24048)
                                                                       Appendix A

Acronyms
    AUSA               Assistant United States Attorney

    BVS                Bureau of Vital Statistics

    DMF                Death Master File

    EAB                Enumeration at Birth

    EDR                Electronic Death Registration

    ESF                Earnings Suspense File

    EVS                Employee Verification Service

    FY                 Fiscal Year

    IG                 Inspector General

    INS                Immigration and Naturalization Service

    IRS                Internal Revenue Service

    MEF                Master Earnings File

    NAPHSIS            National Association of Public Health Statistics and
                       Information Systems

    OIG                Office of the Inspector General

    SSA                Social Security Administration

    SSN                Social Security Number

    SSNVS              Social Security Number Verification Service

    TY                 Tax Year




Use and Misuse of the Social Security Number (A-03-03-24048)
                                                                     Appendix B

Scope and Methodology
We limited our review to summarizing prior Office of the Inspector General and Social
Security Administration work regarding Social Security number misuse. We focused
mainly on past results of Office of the Inspector General audits and investigations. We
conducted our review in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




Use and Misuse of the Social Security Number (A-03-03-24048)
                                                                       Appendix C

Prior Office of the Inspector General Reports

       Social Security Administration, Office of the Inspector General
            Reports Related to Social Security Number Integrity
    Common
  Identification                        Report Title                        Date
     Number                                                                Issued
 A-03-03-13017       Congressional Response Report: Review of the         April 2003
                     Social Security Number Feedback Pilot Project
 A-09-03-23067       Congressional Response Report: The Social           January 2003
                     Security Administration’s Efforts to Process
                     Death Reports and Improve Its Death Master
                     File
 A-09-02-22023       Effectiveness of the Social Security               September 2002
                     Administration’s Death Termination Process
 A-03-02-22008       The Social Security Administration’s Employee      September 2002
                     Verification Service for Registered Employers
 A-08-00-10047       Audit of Enumeration At Birth Program              September 2001
 A-08-00-10061       Replacement Social Security Cards:                 September 2001
                     Opportunities to Reduce the Risk of Improper
                     Attainment and Misuse
 A-01-00-20043       Old-Age, Survivors and Disability Insurance          June 2001
                     Benefits Paid to Deceased Auxiliary
                     Beneficiaries
 A-09-98-61011       Improving the Usefulness of the Social Security      July 2000
                     Administration’s Death Master File




Use and Misuse of the Social Security Number (A-03-03-24048)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                              Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                  Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
